        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Special Report
Management Challenges at the
Department of Energy




DOE/IG-0844                      November 2010
                                  Department of Energy
                                    Washington, DC 20585
                                       November 16, 2010


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "Management Challenges at the
                         Department of Energy"

BACKGROUND

On an annual basis, the Office of Inspector General (OIG) identifies what it considers to be the
most significant management challenges facing the Department of Energy. This effort is
designed to assess the agency's progress in addressing previously identified challenges and to
consider emerging issues. The identified challenges represent risks inherent in the Department's
wide ranging and complex operations as well as those related to specific management processes.

Since its creation in 1977, the Department's priorities have evolved, reflecting current energy and
security needs of the Nation. Most recently, the implementation and execution of programs
supported by the American Recovery and Reinvestment Act of 2009 (Recovery Act) have been at
the forefront of Departmental operations. Signed into law by the President on February 17, 2009,
the Recovery Act provided the Department with $36.7 billion in funding for the acceleration of a
number of efforts, including investments in energy efficiency, renewable energy, transportation,
carbon capture and storage, and a "smart" electric grid. In addition, Recovery Act funding was to
be used to accelerate the cleanup of Cold War legacy nuclear sites and to support Departmental
technological and scientific innovation efforts.

RESULTS

Given the extent to which Recovery Act-related funding has impacted the Department's
portfolio, our Management Challenges Report for Fiscal Year (FY) 2010 categorized "Recovery
Act Implementation" as a specific management challenge. The Department has now moved
from implementation to execution of the legislation's goals and priorities. As such, Recovery
Act implementation has been removed as a specific management challenge. However, Recovery
Act execution remains a focus area that is integral to many of the management challenges
outlined in this report.

With regard to the perennial concern with the Department's efforts to administer its massive
contract portfolio, there has been a significant effort to address this issue. Consequently, the
previously identified challenge of Contract Administration has been modified to more fully
reflect the expanded number of grants and cooperative agreements administered by the
Department, largely as part of the Recovery Act. As a result, the Contract Administration
challenge area has been re-designated as Contract and Financial Assistance Award Management
to better reflect the current status of Departmental operations.
With these considerations in mind and given the persistent nature of the previously identified
management challenges, the OIG's management challenge list for FY 2011 includes the
following:

       Contract and Financial Assistance Award Management
       Cyber Security
       Energy Supply
       Environmental Cleanup
       Human Capital Management
       Safeguards and Security
       Stockpile Stewardship

As noted in past reports, many of these challenges are not amenable to immediate resolution and
must, therefore, be addressed through a concerted effort over time. However, this should not be
interpreted as suggesting that the Department has failed to work to address deficiencies in
program execution.

In addition, we have designated a "watch list," which consists of significant issues that do not
meet the threshold of being classified as management challenges, yet warrant continued attention
by Department officials. For Fiscal Year 2011, the watch list includes: Infrastructure
Modernization, Nuclear Waste Disposal, and Worker and Community Safety.

Contract and Financial Assistance Award Management

As the largest civilian contracting agency in the Federal government, the Department awards
contracts to industrial companies, academic institutions, and non-profit organizations that operate
a broad range of Department facilities. In fact, a substantial portion of the Department's
operations are carried out through contracts. With the addition of Recovery Act funding and
initiatives, successful contract administration within the Department has taken on even greater
importance. In addition to contracting, the Department administers and manages an array of
grants and cooperative agreements, the number of which has increased sharply as a result of
Recovery Act programs. Given the number of contracts handled by the Department and the
complexity and importance of the Department's numerous multi-million dollar projects,
combined with new challenges created by the Recovery Act, we believe that the area of Contract
and Financial Assistance Award Management is a significant management challenge.

Cyber Security

Given the importance and sensitivity of the Department's activities, along with the vast array of
data it processes and maintains, cyber security has become a crucial aspect of the Department's
overall security posture. Although the Department has implemented numerous counter measures
in recent years, security challenges and threats to the Department's information systems continue
and are constantly evolving. Adversaries routinely attempt to compromise the information
technology assets of the Department. As such, it is critical that cyber security protective
measures keep pace with the growing threat. As a result of these inherent risks and the
sensitivity of much of the Department's work, we have identified Cyber Security as a continuing
and significant management challenge.
                                                2
Energy Supply

Fundamental concerns related to the availability of energy supply in the United States (U.S.)
have had a dramatic impact on consumers and the U.S. economy in recent years, with
implications for our national security. Through its role in areas of scientific discovery and
innovation, the national laboratory complex, and the Loan Guarantee Program, there is an
expectation that the Department will play a leadership role in ensuring that the Nation's energy
needs are met through the development, implementation, and execution of sound energy policy.
Providing the leadership to ensure reliable, affordable, and environmentally sound energy supply
represents a significant management challenge for the Department. Addressing these issues will
require both short-term and long-term solutions. For example, the Department is tasked with
helping to modernize our national energy infrastructure; invest in clean energy technologies such
as hydropower, wind, solar, and cellulosic biomass; and promote conservation in our homes and
businesses. Along with provisions of the Energy Policy Act of 2005, the Recovery Act has had a
significant impact on the Department's involvement and prioritization of these issues.

Environmental Cleanup

Since its establishment, the Department has had an important environmental mission. With the
end of the Cold War, this mission took on even greater importance as the agency began to
dispose of large volumes of radioactive waste resulting from more than 50 years of nuclear
defense and energy research work. This effort involves 2 million acres of land located in 35
states and employs more than 30,000 Federal and contractor employees, including scientists,
engineers, and hazardous waste technicians. The disposal and cleanup costs associated with
these efforts are projected to be in the hundreds of billions of dollars and will continue well into
the foreseeable future. As outlined in other challenge areas, the Recovery Act has infused
considerable funding in this vital area. As has been the case in previous years, Environmental
Cleanup remains a management challenge that warrants attention on the part of Departmental
management.

Human Capital Management

For a number of years, strategic management of human capital has been recognized by various
government authorities and oversight organizations as one of the Government's most significant
challenges. In the past, officials have recognized that the Department's staff lacked adequate
project and contract management skills required to oversee large projects. Subsequently, the
Department undertook an effort to perform a critical skills gap analysis to review and evaluate
specific critical skill needs. These actions led to our removal, in FY 2009, of the human capital
focus area from our management challenges. With the increased workload associated with the
implementation and execution of the Recovery Act, the Department must address the challenge
of maintaining a highly skilled workforce with the technical knowledge to perform its new and
expanded mission. As such, last year human capital management was once again added to our
management challenges list. We continue to believe that this challenge represents a critical area
that will affect nearly all major program elements. As a result, human capital management will
continue to be a key challenge area that will, at a minimum, require considerable attention for the
term of the Recovery Act program design and execution.


                                                  3
Safeguards and Security

With the advancement of the Manhattan Project and the race to develop the atomic bomb during
World War II, the origins of the Department are inexorably linked to national security. While
the Department has shifted its focus over time as the needs of the Nation have changed, special
emphasis on safeguards and security has remained a vital aspect of the Department's mission.
The Department plays a vital role in the Nation's security by ensuring the safety of the country's
nuclear weapons, advancing nuclear non-proliferation, and providing safe and efficient nuclear
power plants for the United States Navy. In order to faithfully execute its mission, the
Department employs numerous security personnel, protects various classified materials and other
sensitive property, and develops policies designed to safeguard national security and other
critical assets. Ensuring that these safeguards are both efficient and effective require continuing
focus to address this critical challenge.

Stockpile Stewardship

The Department is responsible for the maintenance, certification, and reliability of the Nation's
nuclear weapons stockpile. To help ensure that our nuclear weapons continue to serve their
essential deterrence role, the Department conducts stockpile surveillance and engineering
analyses, refurbishes selected nuclear systems, and sustains the ability to restore the
manufacturing infrastructure for the production of replacement weapons. Along these lines, the
recent FY 2011 continuing resolution passed by Congress provides for a $624 million funding
increase for the purpose of beginning the planned modernization of the Department's nuclear
weapons complex. While we recognize that the Department has taken steps in recent years to
further enhance the safety and reliability of the Nation's nuclear weapons stockpile, additional
action is necessary if the Department is to extend the life of aging warheads and sustain a viable
weapon stockpile.

Attachments

cc: Deputy Secretary
    Under Secretary for Science
    Acting Under Secretary for Energy
    Administrator, National Nuclear Security Administration
    Chief Financial Officer
    Chief of Staff




                                                 4
                                                                                  Attachment 1

    Challenge Areas and Significant Issues Reported by Various Groups

        OIG Management                                          Significant Issues Identified
                                    GAO Challenge Area1
           Challenge                                                by the Department2

                                   Cleanup of Radioactive &
      Environmental Cleanup                                       Environmental Cleanup
                                       Hazardous Waste
                                      Security Threats and
      Safeguards and Security                                             Security
                                           Problems

       Stockpile Stewardship       Nuclear Weapons Stockpile       Stockpile Stewardship

                                                                    Contract and Project
      Contract and Financial
                                                                      Administration
        Assistance Award             Contract Management
                                                                    Acquisition Process
          Management
                                                                       Management

          Cyber Security                                               Cyber Security

                                     Leadership in Meeting
          Energy Supply
                                     Nation's Energy Needs

    Human Capital Management                                    Human Capital Management

                                                                       Recovery Act


         OIG Watch List

    Infrastructure Modernization    Revitalize Infrastructure

      Worker and Community
                                                                     Safety and Health
              Safety

      Nuclear Waste Disposal                                      Nuclear Waste Disposal

1
 According to Major Management Challenges and Program Risks, Department of Energy
(GAO-03-100, January 2003).
2
 The Department's self-identified "DOE Management Priorities" according to U.S. Department
of Energy Agency Financial Report, FY 2010 (November 2010).




                                                 5
                                                                               Attachment 2


                Relevant Reports Issued in Fiscal Year 2010
Contract and Grant Administration

      Audit Report "Status Report: The Department of Energy's State Energy Program Formula
      Grants Awarded under the American Recovery and Reinvestment Act" (OAS-RA-10-17,
      September 21, 2010)
      Audit Letter Report "The Department of Energy's American Recovery and Reinvestment
      Act - Georgia State Energy Program" (OAS-RA-L-10-06, September 15, 2010)
      Audit Letter Report "National Nuclear Security Administration's Contracts for the Down-
      Blending of Highly Enriched Uranium" (OAS-L-10-08, August 23, 2010)
      Audit Report "The Department of Energy's Implementation of the Energy Efficiency and
      Conservation Block Grant Program under the Recovery and Reinvestment Act: A Status
      Report" (OAS-RA-10-16, August 11, 2008)
      Special Report "Review of the Department's of Energy's Plan for Obligating Remaining
      Recovery Act Contract and Grant Funding" (OAS-RA-10-15, August 4, 2010)
      Special Report "Resolution of Questioned, Unresolved and Potentially Unallowable
      Costs Incurred in Support of the Yucca Mountain Project" (OAS-SR-10-02, July 29,
      2010)
      Audit Report "The Department of Energy's Use of the Weatherization Assistance
      Program Formula for Allocating Funds Under the American Recovery and Reinvestment
      Act" (OAS-RA-10-13, June 11, 2010)
      Audit Report "The Department of Energy's American Recovery and Reinvestment Act-
      Florida State Energy Program" (OAS-RA-10-12, June 7, 2010)
      Preliminary Audit Report "Management Controls over the Commonwealth of Virginia's
      Efforts to Implement the American Recovery and Reinvestment Act Weatherization
      Assistance Program" (OAS-RA-10-11, May 26, 2010)
      Audit Report "Accounting and Reporting for the American Recovery and Reinvestment
      Act by the Department of Energy's Funding Recipients" (OAS-RA-10-06, April 1, 2010)
      Audit Report "Management Controls over the Department of Energy's American
      Recovery and Reinvestment Act- Louisiana State Energy Program" (OAS-RA-10-09,
      May 3, 2010)
      Audit Letter Report "Progress in Implementing the Advanced Batteries and Hybrid
      Components Program under the American Recovery and Reinvestment Act" (OAS-RA-
      L-10-04, April 27, 2010)
      Audit Letter Report "Audit of Fermi National Accelerator Laboratory's NOvA Project"
      (OAS-RA-L-10-02, April 16, 2010)
      Special Report "Progress in Implementing the Department of Energy's Weatherization
      Assistance Program Under the American Recovery and Reinvestment Act" (OAS-RA-10-
      04, February 19, 2010)
      Audit Report "The Office of Science's Management of Information Technology
      Resources" (IG-0831, November 20, 2009)
      Audit Report "Work for Others Performed by the Department of Energy for the
      Department of Defense" (IG-0829, October 26, 2009)




                                             6
                                                                    Attachment 2 (continued)


      Audit Special Report "The Department of Energy's Quality Assurance Process for Prime
      Recipients' Reporting for the American Recovery and Reinvestment Act of 2009" (OAS-
      RA-10-01, October 21, 2009)
      Audit Report "The Department's Management of the ENERGY STAR Program"
      (IG-0827, October 14, 2009)

Cyber Security

      Audit Report "The National Nuclear Security Administration's Management of the
      Product Realization Integrated Digital Enterprise Program" (IG-0836, July 22, 2010)
      Audit Report "Management Controls over the Development and Implementation of the
      Office of Energy Efficiency and Renewable Energy's Performance and Accountability for
      Grants in Energy System" (OAS-RA-10-14, July 22, 2010)
      Audit Report "Management Controls over the Department's WinSAGA System for
      Energy Grants Management Under the Recovery Act" (OAS-RA-10-05, March 25, 2010)
      Audit Evaluation Report "The Federal Energy Regulatory Commission's Unclassified
      Cyber Security Program - 2009" (IG-0830, October 29, 2009)
      Audit Evaluation Report "The Department's Unclassified Cyber Security Program -
      2009" (IG-0828, October 16, 2009)

Energy Supply

      Audit Letter Report "Office of Science's Energy Frontier Research Centers" (OAS-RA-L-
      10-09, August 27, 2010)
      Audit Report "The Department of Energy's Opportunity for Energy Savings Through
      Improved Management of Facility Lighting" (IG-0835, July 1, 2010)
      Inspection Letter Report "Alleged Procurement Irregularities Relating to the Clean Coal
      Power Initiative Gilberton Coal-to-Clean Fuels and Power Project" (S10IS007,
      May 4, 2010)
      Audit Report "The Department of Energy's Program to Assist Federal Buyers in the
      Purchasing of Energy Efficient Products" (OAS-RA-10-08, April 27, 2010)

Environmental Cleanup

      Audit Letter Report "Decommissioning and Demolition Activities at Office of Science
      Sites" (OAS-RA-L-10-05, August 12, 2010)
      Audit Report "Waste Processing and Recovery Act Acceleration Efforts for Contact-
      Handled Transuranic Waste at the Hanford Site" (OAS-RA-10-10, May 25, 2010)
      Audit Letter Report "The Interim Treatment of Salt Waste at the Savannah River Site"
      (OAS-L-10-04, May 3, 2010)
      Audit Letter Report "Audit of Moab Mill Tailings Cleanup Project" (OAS-RA-L-10-03,
      April 23, 2010)
      Audit Report "Management Alert on Environmental Management's Select Strategy for
      Disposition of Savannah River Site Depleted Uranium Oxides" (OAS-RA-10-07,
      April 9, 2010)




                                             7
                                                                    Attachment 2 (continued)


      Audit Report "The Disposition of Uranium-233 at Oak Ridge National Laboratory" (IG-
      0834, February 18, 2010)
      Audit Letter Report "Processing of Sodium-Bearing Waste at the Idaho National
      Laboratory" (OAS-L-10-03, February 4, 2010)

Human Capital Management

      Inspection Letter Report "Allegations of Retaliation at a Department Site" (S10IS013,
      September 29, 2010)
      Audit Special Inquiry "Review of Allegations Regarding Hiring and Contracting in the
      Office of Energy Efficiency and Renewable Energy" (OAS-SR-10-04, September 22, 2010)
      Inspection Report "Severance Repayment at the Savannah River Site" (INS-O-10-02,
      July 29, 2010)
      Audit Letter Report "Former Uranium Enrichment Workers: Questions Regarding Equity
      in Pension Benefits" (OAS-L-10-06, July 9, 2010)
      Audit Letter Report "The National Nuclear Security Administration's Site Office Training
      and Staffing" (OAS-L-10-05, June 8, 2010)
      Special Inquiry Report "Review of Allegations Involving Potential Misconduct by a
      Senior Office of Environmental Management Official" (S09IS024, December 29, 2009)

Stockpile Stewardship

      Inspection Report "Removal of Categories I and II Special Nuclear Material from Sandia
      National Laboratories-New Mexico" (IG-0833, January 15, 2010)
      Audit Letter Report "Follow-up Audit of Test Readiness at the Nevada Test Site" (OAS-
      L-10-02, October 21, 2009)

Safeguards and Security

      Inspection Report "Internal Controls over Computer Hard Drives at the Oak Ridge
      National Laboratory" (INS-O-10-03, August 16, 2010)
      Inspection Letter Report "Allegations Involving the National Nuclear Security
      Administration's National Security Vaults" (INS-L-10-02, July 28, 2010)
      Audit Report "Management Controls over Selected Aspects of the Department of
      Energy's Human Reliability Program" (OAS-M-10-01, November 13, 2009)
      Inspection Report "Employment Verification at Savannah River Site" (INS-O-10-01,
      November 5, 2009)

Worker Health and Safety

      Audit Report "Environment and Worker Safety Control Systems at the National Nuclear
      Security Administration's Kansas City Plant" (IG-0839, September 20, 2010)
      Audit Report "Nuclear Safety: Safety Basis and Quality Assurance at the Los Alamos
      National Laboratory" (IG-0837, August 10, 2010)
      Audit Letter Report "Integrated Safety Management at the Office of River Protection"
      (OAS-L-10-07, July 21, 2010)


                                             8
                                                                  Attachment 2 (continued)


Infrastructure Modernization

      Special Report "Need for Enhanced Surveillance During the Yucca Mountain Project
      Shut Down" (OAS-SR-10-01, July 21, 2010)
      Audit Report "Management Controls over Warranties Involving Newly Constructed and
      Renovated Facilities at National Defense Laboratories" (OAS-M-10-02, June 15, 2010)
      Audit Letter Report "The Department of Energy's Management of the NSLS-II Project"
      (OAS-RA-L-10-01, April 6, 2010)
      Audit Letter Report "Seismic Design of Nuclear Facilities within the Department of
      Energy" (OAS-L-10-01, January 8, 2010)




                                            9
                                                             IG Report No. DOE/IG-0844

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
